Sa
|

OCKLE

2311 Douglas Street CA E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B plete contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1177

NATIONAL MEDICAL IMAGING, LLC, et al.,
Petitioners,
v.
U.S. BANK N.A., et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF AMICI CURIAE
THE HONORABLE JUDITH FITZGERALD (RET.), THE HONORABLE BRUCE MARKELL
(RET.), THE HONORABLE EUGENE WEDOFF (RET.), AND A GROUP OF LAW
PROFESSORS IN SUPPORT OF PETITIONERS in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 5869 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 5th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

y GENERAL fn mesons. _| State of Nebraska 4) / v Chk,
RENEE J. GOSS .

fn mesons. _| My Comm. Exp. September 5, 2023
Notary Public Affiant 40607

 
